                      Department of Veterans Affairs 

                          Office of Inspector General 





           Combined Assessment Program 

                Summary Report 


    Evaluation of Colorectal Cancer 

      Screening and Follow-Up in 

Veterans Health Administration Facilities 





Report No. 13-01741-215                                       June 12, 2013

                            VA Office of Inspector General

                               Washington, DC 20420

To Report Suspected Wrongdoing in VA Programs and Operations:

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

          (Hotline Information: www.va.gov/oig/hotline) 

    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections completed an
evaluation of colorectal cancer (CRC) screening and follow-up activities in Veterans
Health Administration facilities. The purpose of the evaluation was to follow up on the
Office of Inspector General’s report Healthcare Inspection – Colorectal Cancer
Detection and Management in Veterans Health Administration Facilities (Report
No. 05-00784-76, February 2, 2006) and to assess the effectiveness of the Veterans
Health Administration’s CRC screening program.

Inspectors evaluated CRC screening, follow-up diagnostic testing, and patient results
notification at 53 facilities during Combined Assessment Program reviews conducted
from October 1, 2011, through September 30, 2012.

We identified four areas that needed improvement. We recommended that the Under
Secretary for Health, in conjunction with Veterans Integrated Service Network and
facility senior managers, ensures that clinicians:

	 Communicate positive CRC screening test, diagnostic test, and biopsy results to
   patients within 14 days and document notification in the electronic health record.

	 Document follow-up plans or document that no follow-up is warranted within 14 days
   of positive CRC screening results.

	 Discuss diagnostic testing options with patients and ensure desired testing is
   performed within 60 days of the positive CRC screening results.

	 Complete general or surgical evaluations within 30 days of positive CRC pathology.




VA Office of Inspector General                                                                         i
                                   DEPARTMENT OF VETERANS AFFAIRS

                                          Office of Inspector General 

                                           Washington, DC 20420





TO:                    Under Secretary for Health (10)

SUBJECT:               Combined Assessment Program Summary Report – Evaluation of
                       Colorectal Cancer Screening and Follow-Up in Veterans Health
                       Administration Facilities

Purpose
The VA Office of Inspector General (OIG) Office of Healthcare Inspections evaluated
colorectal cancer (CRC) screening and follow-up activities in Veterans Health
Administration (VHA) facilities. The purpose of the evaluation was to follow up on
OIG’s report Healthcare Inspection – Colorectal Cancer Detection and Management in
Veterans Health Administration Facilities (Report No. 05-00784-76, February 2, 2006)
and to assess the effectiveness of VHA’s CRC screening program.

Background
In 2006, the OIG recommended that the Under Secretary for Health establish appropriate
metrics to evaluate and improve timeliness of CRC diagnosis; implement prioritization
processes to ensure high-priority patients receive diagnostic colonoscopies according to
their clinical needs; and implement a consistent notification requirement for patients
undergoing CRC testing, including timeliness and documentation. In response, VHA
updated the CRC Information Letter. On January 12, 2007, VHA issued a CRC
screening directive,1 which included specific requirements for patient notification of CRC
screening results, including timelines and documentation standards.

CRC is the third most common cancer and the second leading cause of cancer deaths in
the United States. In 2010, the Centers for Disease Control and Prevention reported that
more than 22 million Americans remain unscreened for CRC despite the availability of
effective screening tests. CRC affects both men and women, and 93 percent of cases
occur in people age 50 and older. Mortality from CRC can be reduced through early
detection and treatment.


1
    VHA Directive 2007-004, Colorectal Cancer Screening, January 12, 2007 (corrected copy).


VA Office of Inspector General                                                                1
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


CRC screening is one of VHA’s performance measures. The indicator measures the
percent of patients receiving CRC screening according to defined testing intervals. Each
month, a random sample of patient records from each medical facility is reviewed, and
data are aggregated at the Veterans Integrated Service Network (VISN) and national
levels.

VHA requires all eligible veterans at average or high risk2 for CRC to be offered CRC
screening. Unless the primary screening method is colonoscopy, any positive screening
tests (including fecal occult blood tests (FOBTs), fecal immunochemical tests (FITs),
sigmoidoscopy, and DNA stool tests) must be followed up with a full colonoscopy if not
contraindicated.

Clinicians are required to inform patients of different options and may recommend one of
the screening tests. However, patients have the option of rejecting the recommended
method and choosing an alternative method or the option not to be screened. Patients (at
any age) who present with signs or symptoms of CRC, polyps, or other gastrointestinal
diseases must be immediately offered an appropriate diagnostic evaluation. (Screening
does not apply in these cases.)

Scope and Methodology
Inspectors evaluated CRC screening and follow-up at 53 facilities during Combined
Assessment Program (CAP) reviews conducted from October 1, 2011, through
September 30, 2012. These facilities were a stratified random sample of all VHA
facilities. The facilities reviewed represented a mix of size, affiliation, geographic
location, and VISNs. We reviewed facility policies related to CRC screening, follow-up,
and patient notification of test results and 1,036 electronic health records (EHRs) of
patients who had CRC screening (634 FOBTs, 259 FITs, and 143 colonoscopies).
Additionally, we conducted interviews with key personnel.

We generated an individual CAP report for each facility. For this report, we summarized
the data collected from the individual facility CAP reviews. For each of the 53 facilities,
we reviewed a sample of patients’ EHRs. The patient sample within each facility was not
a probability sample, and thus does not represent the entire patient population of that
facility. Therefore, the summary results presented in this report are not generalizable to
the entire VHA.

Inspectors conducted the reviews in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.


2
 Those with a family history of CRC in first-degree relatives and those with a personal history of adenomatous
polyps or inflammatory bowel disease.


VA Office of Inspector General                                                                                   2
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


Inspection Results
Issue 1: CRC Screening Results Notification

VHA requires that all test results be communicated to patients no later than 14 calendar
days from the date on which the results are available to the ordering practitioner.3
Communication with patients can occur in person, by telephone, or in writing, and
practitioners must document that the communication was received and understood.
Positive screening results must be conveyed to the patient in writing or verbally within
14 calendar days from day of laboratory receipt.4

Of the 893 patients who had positive FOBT and FIT screening results, 63 EHRs
(7 percent) contained no documented evidence that the patients were notified of their
results. These cases were discussed with facility managers with the expectation that
notification would occur. Of the remaining 830 patients who were notified, 107 EHRs
(13 percent) did not contain documented evidence that the patients were notified of their
positive results within 14 days.

We recommended that clinicians communicate positive CRC screening test results to
patients within 14 days and document notification in the EHR.

Issue 2: Provider Follow-Up in Response to CRC Screening Results

VHA requires that for any positive screening test, the provider responsible for initiating
follow-up must develop a follow-up plan or must document that no follow-up is indicated
within 14 calendar days of the screening test.

For the 893 patients who had positive FOBT and FIT results, 126 EHRs
(14 percent) did not contain documented evidence that providers developed a follow-up
plan within 14 days or documented that no follow-up was warranted.

We recommended that clinicians document follow-up plans or document that no
follow-up is warranted within 14 days of positive CRC screening results.

Issue 3: Diagnostic Testing and Results Notification

VHA requires that if a diagnostic colonoscopy is indicated, it must be performed within
60 calendar days of the positive screening test.5 If the patient desires colonoscopy more
than 60 calendar days after positive screening, this must be documented in the EHR, and
the colonoscopy must be scheduled within 14 calendar days of the patient’s requested
date.


3
  VHA Directive 2009-019, Ordering and Reporting Test Results, March 24, 2009. 

4
  VHA Directive 2007-004. 

5
  VHA Directive 2007-004. 



VA Office of Inspector General                                                                        3
       Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


Of the 893 patients who had positive FOBT and FIT results, 323 (36 percent) did not
receive further diagnostic testing. Patient refusal was the most frequently documented
reason for lack of diagnostic testing.

For the 570 patients who had a diagnostic test initiated, 121 of the tests (21 percent) were
not conducted within the required timeframe. Of the 121 tests performed outside the
60-day timeframe, 102 patients (18 percent) received testing at the VHA facility, and
19 patients received testing at a non-VHA/fee facility. In general, delays were not caused
by extenuating factors such as patient date preferences and clearances from other services
(such as cardiology). Rather, facilities did not schedule and complete the testing or
arrange for timely completion of non-VHA/fee basis diagnostic testing.

VHA requires that initial findings of a colonoscopy be conveyed to the patient verbally at
the time of testing.6 If a biopsy is performed, the result must be conveyed to the patient
in writing or verbally within 14 calendar days of the confirmed pathology. Written
reports of verbally transmitted colonoscopy or biopsy test results must be sent to the
patient within 14 calendar days of the colonoscopy or confirmed biopsy pathology.

Five of the 570 patients who had diagnostic testing initiated did not have the test fully
completed because of medical issues or inadequate preparation. An additional five
patients had testing completed in the private sector, and results and/or notifications were
not documented in their EHRs. Of the remaining 560 patients, 124 (22 percent) either
had no notification documented in their EHRs or were not notified within the required
14 days.

We reviewed the EHRs of 458 patients who had a biopsy during their diagnostic or
screening colonoscopy. Of these, 120 EHRs (26 percent) did not contain documented
evidence that the patients were notified of the biopsy results within 14 days of the
confirmed pathology.

We recommended that clinicians discuss diagnostic testing options with patients and that
desired testing is performed within 60 days of the positive CRC screening results. We
also recommended that clinicians communicate diagnostic test and biopsy results to
patients within 14 days and document notification in the EHR.

Issue 4: Follow-Up After Confirmed CRC

VHA requires that after CRC is discovered (e.g., positive pathology result), the patient
should be seen in a general or CRC surgery clinic within 30 days.7




6
    VHA Directive 2007-004.
7
    VHA Directive 2007-004.


VA Office of Inspector General                                                                           4
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


We reviewed the EHRs of 49 patients with confirmed CRC pathology results. Further
general or CRC surgical evaluations were not performed timely for 11 (22 percent)
patients.

We recommended that clinicians complete general or surgical evaluations within 30 days
of positive CRC pathology.

Conclusions
Generally, VHA facilities had written procedures or guidelines for CRC management,
including screening and follow-up. Facilities used educational materials to explain CRC
screening and diagnostic tests. Facilities also offered classes for patients undergoing
colonoscopy.

In our 2006 report, we noted that VHA had not established requirements related to
documentation, patient notification, and diagnostic testing and patient evaluation
timeliness. Although VHA has made significant progress, we identified improvement
opportunities in these areas. We found that facilities did not consistently comply with
VHA timeliness requirements for patient results notification, development of follow-up
plans (or documentation that no follow-up is warranted), diagnostic testing, and general
or surgical evaluation after positive CRC pathology.

Recommendations
Recommendation 1. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that clinicians communicate
positive CRC screening test, diagnostic test, and biopsy results to patients within 14 days
and document notification in the EHR.

Recommendation 2. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that clinicians document
follow-up plans or document that no follow-up is warranted within 14 days of positive
CRC screening results.

Recommendation 3. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that clinicians discuss
diagnostic testing options with patients and that desired testing is performed within
60 days of the positive CRC screening results.

Recommendation 4. We recommended that the Under Secretary for Health, in
conjunction with VISN and facility senior managers, ensures that clinicians complete
general or surgical evaluations within 30 days of positive CRC pathology.




VA Office of Inspector General                                                                        5
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


Comments
The Under Secretary for Health concurred with the findings and recommendations. The
implementation plan is acceptable, and we will follow up until all actions are completed.




                                                              JOHN D. DAIGH, JR., M.D.

                                                             Assistant Inspector General for 

                                                                 Healthcare Inspections 





VA Office of Inspector General                                                                        6
    Evaluation of Colorectal Cancer Screening and Follow-up in Veterans Health Administration Facilities
                                                                                           Appendix A
               Under Secretary for Health Comments


               Department of
               Veterans Affairs                                    Memorandum

      Date:        May 3, 2013

      From:        Under Secretary for Health (10)

      Subject:     CAP Summary Report – Evaluation of CRC Screening and
                   Follow-Up in VHA Facilities (2013-01741-HI-0398)
                   (VAIQ 7348125)

      To:          Assistant Inspector General for Healthcare Inspections (54)

     1. I have reviewed the draft report and concur with the report’s
     recommendations. Attached are corrective action plans.

     2. Should you have additional questions, please contact Karen Rasmussen,
     M.D., Director, Management Review Service, at (202) 461-6643, or by
     e-mail at karen.rasmussen@va.gov.




      Robert A. Petzel, M.D.

      Attachment




VA Office of Inspector General                                                                        7
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities




                                        VHA Action Plan


       OIG, Draft Report, CAP Summary Report – Evaluation of CRC
       Screening and Follow-Up in VHA Facilities (VAIQ 7348125)

       Date of Draft Report: March 18, 2013

       Recommendations/                        Status                       Completion
       Actions                                                              Date

       Recommendation 1.          We recommended that the Under Secretary for
       Health, in conjunction with VISN and facility senior managers, ensures that
       clinicians communicate positive CRC screening test, diagnostic test, and
       biopsy results to patients within 14 days and document notification in the
       EHR.

       VHA Comments

       Concur

       VHA will develop and implement a series of educational sessions to key
       leaders and clinicians reinforcing expectations for patient tests result
       notification. FOBT result communication will be included in national
       monitoring of communication of test results.

                                               In progress                 July 2013

       Recommendation 2.          We recommended that the Under Secretary for
       Health, in conjunction with VISN and facility senior managers, ensures that
       clinicians document follow-up plans or document that no follow-up is
       warranted within 14 days of positive CRC screening results.

       VHA Comments

       Concur

       VHA will develop and implement a series of educational sessions to key
       leaders and clinicians reinforcing expectations for documentation of care
       required. A random audit of medical records will be conducted by Primary
       Care Operations (10NC3) to monitor compliance following these sessions.
       In addition, any revision of CRC screening policy will specify facility



VA Office of Inspector General                                                                        8
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


       responsibility to monitor the documentation and communication of the
       plan.

                                               In progress                 July 2013

       Recommendation 3. We recommended that the Under Secretary for
       Health, in conjunction with VISN and facility senior managers, ensures that
       clinicians discuss diagnostic testing options with patients and that desired
       testing is performed within 60 days of the positive CRC screening results.

       VHA Comments

       Concur

       VHA will develop and implement a series of educational sessions to key
       leaders and clinicians reinforcing expectations that clinicians will counsel
       patient to proceed with diagnostic testing within a 60 day timeline of a
       positive CRC screening result.

                                               In progress                 July 2013

       Facilities will be provided with tools to assist in identifying and tracking
       Veterans with FOBT positive results and determining the proportion that
       undergo desired diagnostic testing within 60 days of that positive result.

                                               In progress                 Dec 2013

       VHA Patient Care Services will collaborate with Office of Informatics
       Analytics in the development of a quarterly report identifying those
       Veterans with a positive FOBT screening with those whom have undergone
       a colonoscopy within 60 days of a positive screen.

                                               In progress                 Feb 2014

       Recommendation 4. We recommended that the Under Secretary for
       Health, in conjunction with VISN and facility senior managers, ensures that
       clinicians complete general or surgical evaluations within 30 days of
       positive CRC pathology.

       VHA Comments

       Concur

       The VHA acknowledges the importance of timely care and treatment of a
       Veteran with a biopsy proven diagnosis of CRC with the established CRC
       policy. This OIG report confirms the VHA’s commitment in this regard,

VA Office of Inspector General                                                                        9
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities


       identifying that 78 percent of patients identified with an established
       diagnosis of CRC through CRC screening were seen by a General Surgeon
       or CRC surgeon within 30 days of the biopsy. One hundred percent
       compliance is not expected, because any single Veteran may elect to
       receive a second opinion in or outside the VHA, or the clinical picture may
       dictate medical oncology rather than surgical care as the next most
       appropriate plan of treatment. The Assistant Deputy Under Secretary for
       Health for Operations and Management, Clinical Operations will issue a
       memorandum reinforcing the following: the VHA CRC policy emphasizing
       that timely care and treatment of the Veteran with a biopsy-proven
       diagnosis of CRC is a priority; and the VHA Ordering and Reporting Test
       Results policy requirement for documentation of treatment actions in
       response to a positive CRC biopsy result in the patient’s electronic medical
       record.

                                               In progress                 June 2013




VA Office of Inspector General                                                                       10
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities
                                                                                           Appendix B
            OIG Contact and Staff Acknowledgments


OIG Contact                       For more information about this report, please contact the
                                  OIG at (202) 461-4720
Contributors                      Daisy Arugay, MT, Project Coordinator
                                  Annette Acosta, MN, RN
                                  Josephine Andrion, MHA, RN
                                  Margie Chapin, RT, JD
                                  Paula Chapman, CTRS
                                  Jennifer Christensen, DPM
                                  Darlene Conde-Nadeau, MSN, ARNP
                                  Dorothy Duncan, RN
                                  Donna Giroux, RN
                                  Wachita Haywood, RN
                                  Gayle Karamanos, MS, PA-C
                                  Frank Keslof, EMT, MHA
                                  Karen McGoff-Yost, MSW, LCSW
                                  Jeanne Martin, PharmD
                                  Cindy Niemack-Brown, CMSW, LMHP
                                  Melanie Oppat, MEd, LDN
                                  Larry Ross, Jr., MS
                                  Kathleen Shimoda, RN, BSN
                                  Laura Spottiswood, RN, MPH
                                  Susan Tostenrude, MS
                                  Ann Ver Linden, RN, MBA
                                  Cheryl Walker, ARNP, MBA
                                  Joanne Wasko, LCSW




VA Office of Inspector General                                                                       11
    Evaluation of Colorectal Cancer Screening and Follow-Up in Veterans Health Administration Facilities
                                                                                           Appendix C

                                 Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
National Center for Patient Safety
Office of General Counsel
Office of the Medical Inspector
VISN Directors (1–23)
Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available at www.va.gov/oig.




VA Office of Inspector General                                                                       12
